UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580
Division of Marketing Practices
James K o h m
Direct Dial
202 326 2640

Fax Numb er
202 326 3395

January 14, 2004
Mr. Neil H. Offen, President
Direct Selling Association
1275 Pennsylvania Ave., NW
Suite #800
Washington, DC 20004-2411

Re: Staff Advisory Opinion - Pyramid Scheme Ana lysis
Dear Mr. Offen:
Thank you for your inquiry requesting a staff Advisory Opinion regarding the Federal Trade
Commission's analysis of pyramid schemes. You have identified two areas of concern: 1) the
Commission's analysis of compensation based on personal consumption by members of a multi-level
company's sales force ("internal consumption”); and 2) the legal significance of consent orders that the
Commission has entered into with several pyramid scheme operators. I am pleased to provide you with
the following staff guidance.
Internal Consumption
Much has been made of the personal, or internal, consumption issue in recent years. In fact, the
amount of internal consumption in any multi-level compensation business does not determine whether
or not the FTC will consider the plan a pyramid scheme. The critical question for the FTC is whether the
revenues that primarily support the commissions paid to all participants are generated from purchases of
goods and services that are not simply incidental to the purchase of the right to participate
in a money-making venture.
.
A multi-level compensation system funded primarily by such non-incidental revenues does not depend
on continual recruitment of new participants, and therefore, does not guarantee financial failure for the
majority of participants. In contrast, a multi-level compensation system funded primarily by payments made
for the right to participate in the venture is an illegal pyramid scheme.

In a pyramid scheme, participants hope to reap financial rewards well in excess of their investment
based primarily on the fees paid by members of their "downlines." Downline members pay these fees
to join the scheme and meet certain prerequisites for obtaining the monetary and other rewards offered
by the program. A participant, therefore, can only reap rewards by obtaining a portion of the fees paid by
those who join the scheme later. The people who join later, in turn, pay their fees in the hope of
profiting from payments of those who enter the scheme after they do. In this way, a pyramid scheme
simply transfers monies from losers to winners. For each person who substantially profits from the
scheme, there must be many more losing all, or a portion, of their investment to fund those winnings.
Absent sufficient sales of goods and services, the profits in such a system hinge on nothing more than
recruitment of new participants (i.e., fee payers) into the system.
The Commission's recent cases, however, demonstrate that the sale of goods and service; alone does
not necessarily render a multi-level system legitimate. Modem pyramid schemes generally do not
blatantly base commissions on the outright payment of fees, but instead try to disguise these payments
to appear as if they are based on the sale of goods or services. The most common means employed to
achieve this goal is to require a certain level of monthly purchases to qualify for commissions. While
the sale of goods and services nominally generates all commissions in a system primarily funded by
such purchases, in fact, those commissions are funded by purchases made to obtain the right to
participate in the scheme. Each individual who profits, therefore, does so primarily from the payments
of others who are themselves making payments in order to obtain their own profit. As discussed
above, such a plan is little more than a transfer scheme, dooming the vast majority of participants to
financial failure.
1 A participant’s downline usually consists of the people the participant recruits to join the
program as well as the people her recruits recruit, and so on through a predetermined number of
levels.
2 It is important to distinguish an illegal pyramid scheme from a legitimate buyers club. A
buyers club confers the right to purchase goods and services at a discount. If a buyers club is
organized as a multi-level reward system, the purchase of goods and services by one’s downline
could defray the cost of one’s own purchases (i.e., the greater the downline purchases, the greater
the volume discounts that the club receives from its suppliers, the greater the discount that can be
apportioned to participants through the multi-level system). The purchase of goods and services
within such a system can, therefore, be distinguished from a pyramid scheme on two grounds.
First, purchases by the club's members can actually reduce costs for everyone (the goal of the
club in the first place). Second, the purchase of goods and services is not merely incidental to the
right to participate in a money-making venture, but rather the very reason participants join the
program. Therefore, the plan does not simply transfer money from winners to losers, having the
majority of participants with financia11osses.
Page 2

Consent Orders
With regard to your second question, the Federal Trade Commission often enters into consent orders
with individuals and companies that the Commission has determined have violated the FTC Act. To
protect the public from those who have demonstrated an unwillingness to follow the law, these orders
often contain provisions that place extra constraints upon a wrongdoer that do not apply to the general
public. These "fencing-in" provisions only apply to the defendant signing the order and anyone with
whom the defendant is acting in concert. They do not represent the general state of the law.
For example, when the Commission brings a pyramid scheme action, the case often concludes with a
consent order. The scope and severity of the order will depend upon the facts of the case; however,
most such orders contain definitions that exclude any sale to a participant in the business from the
calculation of the venture’s legitimacy. These definitions draw very clear lines for those who have
demonstrated a willingness to violate the law, but are not intended to represent the sta te of the law for
the general public.
Thank you for your inquiry.

James A. Kohm
Acting Director of Marketing Practices

Page 3

